                                                      IG-02-015




AUDIT
                           MANAGEMENT OF FORWARD FUNDING
REPORT                         AND UNDISBURSED COSTS

                                     March 29, 2002




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Audits at
(202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Audits. Ideas and requests can also be mailed to:

      Assistant Inspector General for Audits
      Code W
      NASA Headquarters
      Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800) 424-
9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form or write to
the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC 20026.
The identity of each writer and caller can be kept confidential, upon request, to the extent
permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

CFO            Chief Financial Officer
FAR            Federal Acquisition Regulation
FY             Fiscal Year
GAO            General Accounting Office
                                               March 29, 2002
W


TO:              A/Administrator

FROM:            W/Counsel to the Inspector General

SUBJECT:         INFORMATION: Management of Forward Funding and Undisbursed Costs
                 Report Number IG-02-015


The NASA Office of Inspector General has completed an audit of Management of Forward
Funding and Undisbursed Costs.1 The Agency uses forward funding as a tool of the Federal
budget process to allow continuing operations and to avoid funding shortfalls. Forward funding,
consisting of unobligated budget authority and uncosted obligations,2 sets aside funds for future
Agency obligations and expenses. NASA must monitor forward funding balances to fully
understand the status of a program or project. Also, large forward funding balances can give the
appearance that NASA is carrying over excessive balances from one fiscal year to the next. We
evaluated NASA's management of forward funding and undisbursed costs.3 Specifically, we
determined whether NASA complied with the Agency-recommended thresholds4 for unobligated
budget authority, uncosted obligations, and undisbursed costs and whether those thresholds were
still appropriate.

NASA provided adequate management of unobligated budget authority and undisbursed costs;
however, management of uncosted obligations needs greater emphasis. NASA had more than
$800 million in uncosted obligations that exceeded the 2-month threshold. Limiting the
uncosted obligations could have resulted in alternative beneficial uses of Agency funds.5
Although we determined that the recommended thresholds were still appropriate, we believe
NASA should apply the thresholds at the program or project level rather than at the Center level
for the reasons discussed in the finding section of the report.


1
  We performed the audit at NASA Headquarters and three NASA Centers.
2
  Unobligated budget authority consists of funds available but not yet obligated for contract and program
requirements. Uncosted obligations are funds already allocated to a program or contract for work not yet
performed.
3
  Undisbursed costs are funds set aside for expenses recognized but not yet paid.
4
  In 1996, the Agency recommended thresholds to assist NASA in managing forward funding. Thresholds stated
that unobligated budget authority should consist of 1 month of available funds for new obligations or existing
contract actions, uncosted obligations should consist of 2 months of average costs for forward funding, and
undisbursed costs should consist of 2 months of average disbursements.
5
  Congressional and Office of Management and Budget notifications/approvals may be required before NASA can
reallocate program funds.
                                                                                                               2

Background

Forward funding first became a concern for the Agency when a House Subcommittee raised
concerns about forward funding balances to the General Accounting Office (GAO) in 1996.6
Both the GAO and an internal NASA steering group reviewed forward funding.7 The steering
group recommended that NASA (1) establish Center thresholds for unobligated budget authority,
uncosted obligations, and undisbursed costs and (2) study the thresholds over time. The GAO
recommended that NASA measure the thresholds at the program or project level.

Recommendations

We recommended that the NASA establish and implement a forward funding management
policy and incorporate the policy into the Agency’s Federal Acquisition Regulation (FAR)
Supplement. These actions will help to ensure effective use of Agency funds.

Management’s Response and OIG Evaluation

NASA concurred with the report recommendations but expressed concerns about some of the
premises in the report. Management stated that uncosted obligations may not always indicate
underutilized funds and that the report minimized the role of Agency strategic plans and
congressional approvals needed to redistribute Agency funds. Despite those concerns, the
Agency plans to issue a forward funding management policy as part of the Agency Financial
Management Manual. The Agency will disseminate the policy by issuing a Procurement
Information Circular to Agency procurement personnel.

We consider management’s planned actions responsive to the recommendations. Details on the
status of the recommendations are in the recommendations section of the report.



[original signed by]
Francis P. LaRocca

Enclosure
Final Report on Audit of Management of Forward Funding and Undisbursed Costs




6
  In March 1996, the Chairman of the House of Representatives Subcommittee on Space and Aeronautics raised
concerns to the GAO about excessive forward funding balances in some NASA programs.
7
  GAO issued the results of its work in audit report, GAO/NSIAD 96-206, “NASA Budget: Carryover Balances for
Selected Programs.” The NASA steering group published its results in “The Management and Liquidation of
Budget Authority: Issues and Recommendations Associated with Recent Growth in Unliquidated Budget
Authority,” in June 1996.
FINAL REPORT ON AUDIT OF MANAGEMENT OF FORWARD
         FUNDING AND UNDISBURSED COSTS
                                      March 29, 2002
W


TO:            B/Acting Chief Financial Officer
               H/Assistant Administrator for Procurement

FROM:          W/Assistant Inspector General for Audits

SUBJECT:       Final Report on Management of Forward Funding and Undisbursed Costs
               Assignment Number A-01-016-00
               Report Number IG-01-015


Enclosed please find the subject final report. Our evaluation of your response has been
incorporated into the body of the report. We consider management’s proposed,
corrective actions responsive for the recommendations. The recommendations will
remain open for reporting purposes until corrective actions are completed. Please notify
us when actions have been completed on the recommendations, including the extent of
testing performed to ensure corrective actions are effective. The final report distribution
is in Appendix E.

We appreciate the courtesies extended to the audit staff. If you have questions
concerning the report, please contact Mr. Chester A. Sipsock, Program Director,
Financial Management Audits, Quality and Oversight (216) 433-8960, or Ms. Linda
Wagner Anderson, Auditor-in-Charge, at (757) 864-3745.




[original signed by]
Alan J. Lamoreaux

Enclosure
                                                     2

cc:
AA/Chief of Staff
AB/Associate Deputy Administrator for Institutions
B/Comptroller
G/General Counsel
BF/Director, Financial Management Division
JM/Director, Management Assessment Division
AA/Director, Kennedy Space Center
106/Director, Langley Research Center
DA01/Director, Marshall Space Flight Center
                            NASA Office of Inspector General
IG-02-015                                                                        March 29, 2002
 A-01-016-00
                            Management of Forward Funding
                                and Undisbursed Costs


Introduction

The Federal Government’s ongoing operations are contingent on the annual
congressional appropriations;8 therefore, NASA faces certain budgeting challenges. One
such challenge is to continue funding operations during the period when the Congress
and President have not finalized the Agency’s appropriations. NASA uses a fundamental
tool of the Federal budget process, known as forward funding, to safeguard against
funding shortfalls during those periods. Forward funding (1) sets aside certain funds for
new obligations and/or planned Agency expenses and (2) consists of the total of
unobligated budget authority and uncosted obligations. Forward funding can also
decrease the amount of administrative and procurement actions related to incremental
funding, thereby decreasing the potential for delays in contract/procurement activities.

It is important that management monitor forward funding balances to fully understand the
status of a program or project. Large forward funding balances can indicate that research
and development efforts, such as grants9 and cooperative agreements,10 have required
more time to actually start work. Large forward funding balances can also give the
appearance that NASA is carrying over excessive balances from one fiscal year to the
next. As a result of a House subcommittee concern about excessive forward funding
balances in some NASA programs, the GAO issued a report11 on its review of NASA’s
forward funding balances. In response to the GAO report, NASA issued the Draper


8
  Congress appropriates funds to NASA on a fiscal year (FY) basis. NASA allocates and distributes those
funds by appropriation to its programs and Centers. NASA Headquarters and Center officials subsequently
obligate the funds to meet program and contract requirements for the year. The Agency expenses (costs)
funds as work or services are performed and disburses funds against expensed amounts upon receipt of an
invoice or other payment request.
9
  NASA awards grants and cooperative agreements to universities and non-profit entities to fund basic and
applied research. NASA Procedures and Guidelines 5800.1, “Grant and Cooperative Agreement
Handbook,” states that a research grant shall be used (1) to accomplish a NASA objective through
stimulating the acquisition of knowledge of the subject under study or attempting to determine the potential
of scientific discoveries or improvements in technology, materials, processes, methods, devices, or
techniques and (2) to advance the state of the art. The recipient will generally conduct the research without
assistance from NASA and will provide a final product, usually a report.
10
   NASA Procedures and Guidelines 5800.1, “Grant and Cooperative Agreement Handbook,” states that a
cooperative agreement shall be used when the principal purpose is to transfer something of value to the
recipient to accomplish a public purpose of support or stimulation authorized by Federal statute, where
substantial involvement is anticipated between NASA and the recipient.
11
   Details on the GAO findings are in Appendix B of our report.
report, which discusses the results of an internal Agency study12 of forward funding
balances. The report states that when NASA’s budget decreased slightly in the 1990’s,
managers maintained larger forward funding balances to soften the impact of budget
reductions in future years. The Draper report recommended the following thresholds to
assist NASA in managing forward funding:

     •   unobligated budget authority should consist of 1 month of available funds for new
         obligations or existing contract actions,
     •   uncosted obligations should consist of 2 months of average costs for forward
         funding, and
     •   undisbursed costs should consist of 2 months of average disbursements.

The Draper report also recommended that NASA study the thresholds over time to
determine whether they should be revised.

Our overall audit objective was to evaluate NASA's management of forward funding
(unobligated budget authority and uncosted obligations) and undisbursed costs.
Specifically, we determined whether NASA complied with the recommended thresholds
for unobligated budget authority, uncosted obligations, and undisbursed costs and
whether those thresholds were still appropriate. Details on the audit objectives, scope,
and methodology are in Appendix A.

Results in Brief

NASA’s management of forward funding needs improvement. The Agency complied
with the 1-month threshold for unobligated budget authority. However, NASA
Headquarters and the three Centers we reviewed13 did not comply with the 2-month
threshold for uncosted obligations. NASA had more than $800 million in uncosted
obligations as of September 30, 2000, which exceeded the 2-month threshold. If NASA
had limited forward funding balances for uncosted obligations as recommended, the
Agency could have found alternative beneficial uses for those funds.

In relation to NASA’s management of undisbursed costs, we determined that the Agency
did not always comply with the 2-month threshold for undisbursed costs. Specifically,
NASA had not disbursed funds because contractors had not completed required contract
milestones.14 However, we determined that the withholding of contract payments
pending the completion of work or services was in the Agency’s best financial interest.
Therefore, no action is required for improving management of undisbursed costs and,
accordingly, we did not address the excess balances in this report.



12
   Additional details on the study are in Appendix B.
13
   We reviewed forward funding information on 35 contracts at 3 Centers: John F. Kennedy Space Center,
Langley Research Center, and George C. Marshall Space Flight Center.
14
   Of the 35 contracts we reviewed, 25 contracts had excess undisbursed costs totaling about $212 million.


                                                     2
Regarding whether the recommended thresholds were still appropriate, we determined
that some level of forward funding is necessary to carry out Government programs. We
considered the 2-month threshold for uncosted obligations to prevent work stoppages and
the 1-month threshold for unobligated budget authority to maintain program reserves
sufficient to sustain NASA operations during periods between Agency appropriations.
However, we believe NASA should apply the thresholds at the program or project level
rather than at the Center level for the reasons discussed in the finding section below.15
We also considered the 2-month threshold for undisbursed costs reasonable to allow for
the various factors16 contributing to the lag time between cost accruals and payments.

Funds in Uncosted Obligations

Finding. Agencywide, uncosted obligations exceeded the recommended threshold by
more than a total of $800 million for program years17 1998 through 2000. The primary
reasons for the excess uncosted obligations balances were that:

     •   the Chief Financial Officer (CFO) had not issued a forward funding policy to
         assist NASA in assuring sound funds management,
     •   Agency procurement regulations did not address forward funding management,
         and
     •   Center personnel did not always perform resource reviews during the fiscal year
         to identify and reallocate excess uncosted obligations.

If NASA personnel had monitored the forward funding balances more closely during the
fiscal year to identify potential excess uncosted obligations, the Agency may have been
able to realize greater benefit from available appropriations.18

Federal and NASA Guidance for Using Appropriated Funds

The FAR and NASA FAR Supplement require adequate funding of programs to avoid
anti-deficiency violations.19 Specifically, the FAR requires that agencies adequately fund




15
   The Draper report recommended that each Center use a total measurement or Center composite to
evaluate forward funding. The Center composite is a total of all Center financial transactions for each
appropriation including contracts, grants, cooperative agreements, purchase orders, travel, salaries, etc.
16
   Various factors, such as type of contractual agreement, determine the proper time for disbursement of
funds. However, NASA must accrue costs as incurred to reflect current liabilities, even though the Agency
may not make actual disbursements until some later period.
17
   A program year identifies the fiscal year in which Congress appropriated funds.
18
   Congressional and Office of Management and Budget notifications/approvals may be required before
NASA can reallocate program funds.
19
   FAR, Part 32, Contract Financing, states that adequate funding should be available to prevent anti-
deficiency violations. The Anti-Deficiency Act prohibits a Government employee from obligating or
expending funds in excess of the amount available in an appropriation.


                                                     3
programs to cover contract costs. Most NASA contracts are awarded for multiple years
and are incrementally funded;20 however, there is no Federal funds management guidance
for those types of contracts.

For our audit, we relied on the GAO and Draper reports as guidance to evaluate sound
funds management of NASA’s programs. The GAO report recommended that NASA
measure forward funding on individual programs because reviewing only Agency and
Center totals would not detect large forward funding balances in specific programs (see
Appendix B). As discussed earlier, the Draper report recommended specific thresholds
for unobligated budget authority, uncosted obligations, and undisbursed costs for each
Center.

Status of Uncosted Obligations

Agency Composite of Uncosted Obligations. NASA personnel did not always comply
with the recommended 2-month threshold for uncosted obligations. We reviewed the
Agency composite21 of uncosted obligations balances for program years 1998 through
2000. The balances of the excess uncosted obligations for the 3 years totaled more than
$800 million as shown in the table below (Appendix C contains detailed calculations of
the uncosted obligations):

                    Net Uncosted Obligations Amounts in Excess of 2 Months

                                                              Balance of Excess Uncosted
                            NASA                                    Obligations at
                         Appropriation                            September 30, 2000

           Mission Support                                             $133,297,041
           Human Space Flight                                             6,150,156
           Science, Aerospace, and Technology                           666,544,605

           Total                                                       $805,991,802


It should be noted that when we used the Agency composite to analyze uncosted
obligations, we could not detect excess balances in individual programs or projects
within each appropriation. For example, some programs or projects may have been under
the 2-month threshold, while others may have been over the threshold. Because NASA
would not be able to detect excess uncosted obligations when reviewing Agency funds as
a whole, we agree with the GAO recommendation that NASA should measure forward
funding on individual programs and projects rather than Agency composite totals.



20
     Incremental funding is a method to fund contracts over time through successive monetary increases.
21
     The Agency composite is a total of all NASA financial transactions for each appropriation.


                                                        4
Uncosted Obligations Related to Grants and Cooperative Agreements. Excess
uncosted obligations may be justified in some cases. We determined that excess
uncosted obligations for grants and cooperative agreements totaled about $227 million
(or 28 percent of the total uncosted obligations)22 for program years 1998 through 2000.
Financial management officials informed us that uncosted obligations for grants and
cooperative agreements exceeded the 2-month threshold because NASA generally fully
funded the grants and cooperative agreements at award, regardless of when the work was
performed. The NASA Grant and Cooperative Agreement Handbook states that NASA
reserves the right to either fully or incrementally fund grants based on program
considerations. The Handbook further states that grants with anticipated annual funding
that exceeds $50,000 may be incrementally funded for less than the amount stated in the
proposal. NASA’s Office of Aerospace Technology established a policy to incrementally
fund grants valued at more than $50,000 to make better use of that office’s excess
uncosted obligations balances. While we agree that some of the $227 million in forward
funding for grants and cooperative agreements may have been justified, NASA
management should consider alternatives, such as incremental funding, to fund grants
and cooperative agreements.

Reasons for Uncosted Obligations Balances

NASA may not have realized the full benefit from appropriated funds because the
Agency’s CFO did not establish a funds management policy and personnel were not
required to identify excess uncosted obligations during the year.

Funds Management Policy. Although the GAO and NASA financial management
officials agreed in 1996 that forward funding thresholds should be established, the NASA
CFO has not yet included the thresholds in a forward funding policy. In addition, NASA
did not perform additional studies of forward funding to determine whether the
thresholds were still appropriate.

In the absence of an Agency forward funding management policy, personnel
appropriately followed procurement regulations and obligated the maximum amount of
funding available to cover contract performance without considering whether actual
costing would occur in the current fiscal year. Federal and Agency procurement
regulations allow the Agency to fully fund contracts, which may result in excess uncosted
obligations. However, those regulations do not address funds management or forward
funding thresholds and, therefore, do not ensure the best use of available resources.
NASA should include a forward funding policy in the Agency’s procurement regulation,
the NASA FAR Supplement.

Reviews of Uncosted Obligations Balances. Early identification of excess uncosted
obligations is vital to ensure that excess funds are reallocated before the end of the fiscal

22
  NASA also administered many of its congressional earmarks (funds set aside within an appropriation for
a specified purpose) through grants. Although financial data for congressional earmarks was not readily
available, earmarks are reflected in the $227 million.


                                                    5
year. Performing periodic reviews during the fiscal year would allow NASA personnel
to determine whether excess uncosted obligations could be put to better use. However,
procurement, program, and project personnel were not required or trained to identify
excess uncosted obligations balances during the year. Because the Draper report
addressed forward funding thresholds only at the fiscal year end, personnel reviewed
funds balances and reallocated obligations and costs at the year end to meet Agency
financial management goals. For example, NASA personnel stated that they forward
funded a Center computer maintenance contract over 6 months into 2001 to use expiring
funds at the end of FY 2000. Reviews of uncosted obligations during the fiscal year
could have resulted in earlier detection of excess balances and greater opportunity for
alternative uses for the available funds.

Benefits of Improved Management of Uncosted Obligations Balances

Effective management of appropriated funds becomes more critical as NASA’s budgetary
resources continue to decrease. Performing reviews of uncosted obligations balances is
one way NASA could improve funds management by identifying alternative uses for
available funds. For example, in March 1996, the Space Shuttle Program used $70
million of uncosted obligations balances in the Shuttle program to fund Space Shuttle
upgrades to improve Shuttle safety.

If NASA Headquarters and Center financial and program personnel had monitored the
forward funding balances more closely, NASA could have found alternative uses for
some of the $800 million in excess uncosted obligations. Further, if the Agency
improves forward funding practices on future programs, projects, and contracts, NASA
could realize greater benefit from available appropriations.

We commend the Agency CFO for establishing a performance goal23 for forward
funding. However, formal Agency policy is needed to emphasize the importance of
funds management, specifically management of unobligated budget authority and
uncosted obligations, throughout the fiscal year.

Recommendations, Management’s Response, and Evaluation of
Response

1. The NASA CFO, in conjunction with the Assistant Administrator for
Procurement, should establish and implement a forward funding management
policy. At a minimum, the policy should address the following requirements:




23
  NASA’s 2001, 2002, and 2003 Performance Plans provide a performance goal (3 months) for forward
funding, which represents the total of unobligated budget authority and uncosted obligations. However,
the Performance Plans do not address specific goals for unobligated budget authority or uncosted
obligations. For example, NASA could forward fund uncosted obligations for 3 months and not forward
fund unobligated budget authority, and the Agency would still meet the performance goal.


                                                    6
   •   Review forward funding balances and justify them if they exceed established
       thresholds.
   •   Measure future uncosted obligations at the program or project level at a
       minimum.
   •   Evaluate forward funding thresholds periodically to determine whether they
       continue to be appropriate.
   •   Conduct budgetary resource reviews during the fiscal year to identify
       uncosted obligations balances in excess of established thresholds so that the
       Agency can reallocate funds whenever possible in accordance with
       appropriate funding review and approval policies.
   •   Emphasize funds management throughout NASA.

2. The Assistant Administrator for Procurement should incorporate the NASA
CFO’s forward funding management policy into the NASA FAR Supplement.

Management's Response. Concur. NASA agreed to establish and implement a forward
funding management policy and plans to publish the policy in the Agency’s Financial
Management Manual by October 1, 2002. Also, the Associate Administrator for
Procurement will emphasize the forward funding policy to Agency procurement
personnel by issuing a Procurement Information Circular rather than making a regulatory
change to the NASA FAR Supplement. The estimated completion date for issuing the
Circular is October 1, 2002.

Although the CFO agreed to establish a forward funding management policy, financial
management officials expressed concerns about some of the premises associated with the
report’s findings. Management stated that uncosted obligations may not be a sign of
underutilized funds and that using forward funding to continue operations at the
beginning of the fiscal year in the absence of a signed appropriation is not the primary
purpose of uncosted obligations. Further, the report underestimated the redistribution of
uncosted obligations, and management is concerned that the $800 million identified in
the report minimized the role of the Agency’s strategic plans and the approval of
Congress. Despite these concerns, NASA will determine appropriate targets to use and
will base the targets on the type of work being conducted. Finally, the Agency will
establish a regular review of unobligated funds and uncosted obligations to determine
whether balances are reasonable and redistributions are warranted. The complete text of
management's response is in Appendix D.

Evaluation of Response. NASA’s planned actions are responsive to the
recommendations. The recommendations are considered resolved but will remain
undispositioned and open until the agreed-to corrective actions are completed.

With regard to management’s concerns, we agree that excess uncosted obligations may
be justified in some cases, and we included examples in our report. The report discusses
the use of forward funding at the beginning of the fiscal year to continue operations as an
example of budget challenges facing NASA and does not state that this is the primary



                                              7
purpose of uncosted obligations. The report also recognizes the NASA Office of
Aerospace Technology for its effective management of grants and cooperative
agreements and that approval outside of NASA may be needed in certain cases to
redistribute funds. It was not our intent to advise funding of programs or projects without
considering Agency priorities. We commend the CFO’s approach and planned corrective
actions to provide greater emphasis Agencywide for forward funding management.




                                             8
             Appendix A. Objectives, Scope, and Methodology

Objectives

Our overall audit objective was to evaluate NASA's management of forward funding
(unobligated budget authority and uncosted obligations) and undisbursed costs.
Specifically, we evaluated whether NASA complied with the recommended thresholds
for forward funding and undisbursed costs and whether those thresholds were
appropriate.

Scope and Methodology

We obtained Agencywide financial balances, by appropriation, as of September 30, 2000,
as reported in NASA’s Financial and Contractual Status system. We calculated
unobligated budget authority, uncosted obligations, and undisbursed costs using average
monthly obligations, costs, and disbursements from fiscal year (FY) 2000 financial data.
We divided (1) the unobligated budget authority at fiscal year end 2000 by average
monthly obligations, (2) the uncosted obligations by average monthly costs, and (3)
undisbursed costs by average monthly disbursements. To identify balances in excess of
recommended thresholds, we subtracted 1 month of average obligations from the
unobligated budget authority, 2 months of average costs from the uncosted obligations,
and 2 months of average disbursements from the undisbursed costs. We reviewed
forward funding information on 35 contracts at 3 Centers: John F. Kennedy Space
Center (Kennedy), Langley Research Center (Langley), and George C. Marshall Space
Flight Center (Marshall).

We assessed the reliability of computer-processed data contained in NASA’s Financial
and Contractual Status system and Center-unique financial systems and found them to be
adequate. As a result, we concluded that the computer-processed data were sufficiently
reliable to meet the audit objectives.

Management Controls Reviewed

We reviewed the processes for recording obligations, costs, and disbursements at each of
three Centers, and we considered controls for those processes to be adequate. We also
reviewed Federal appropriations and procurement laws as follows:

   •   Department of Veterans Affairs and Housing and Urban Development
       Appropriations Acts for FY’s 1993 through 2000,
   •   Cash Management Improvement Act of 1992 and Amendments,
   •   Federal Acquisition Regulation, and
   •   Federal Acquisition and Streamlining Act of 1994.




                                            9
Appendix A

We also reviewed Office of Management and Budget Circulars, the U.S. Treasury
Financial Manual, and Federal cash management initiatives. We reviewed applicable
NASA regulations and documents to include the:

   •   NASA Federal Acquisition Regulation Supplement,
   •   NASA Procedures and Guidelines for program and project management,
   •   NASA Financial Management Manual,
   •   NASA Performance Plans for FY’s 2000 and 2001,
   •   Chief Financial Officer’s Functional Leadership Plan, and
   •   NASA’s budget instructions for the program years reviewed.

We considered the lack of an Agency policy for forward funding a management control
weakness as discussed in the report.

Audit Field Work

We conducted field work from January 2001 through February 2002 at NASA
Headquarters, Kennedy, Langley, and Marshall. We performed the audit in accordance
with generally accepted government auditing standards.




                                          10
               Appendix B. Agency Forward Funding Thresholds

In March 1996, the Chairman of the House of Representatives Subcommittee on Space
and Aeronautics raised concerns to the General Accounting Office (GAO) regarding
excessive forward funding balances in some of NASA’s programs. As a result, the GAO
reviewed forward funding balances in 11 Agency programs at the end of fiscal year (FY)
1995 and identified excess forward funding balances of $3.6 billion ($.9 billion in
unobligated budget authority and $2.7 billion in uncosted obligations).24 The GAO
reported that NASA’s forward funding balances consisted of about 4 months of the
unobligated budget authority provided to those programs in FY 1995 to cover costs that
would accrue in FY 1996 or later. The GAO recommended that NASA measure forward
funding on individual programs because reviewing only Agency and Center uncosted
obligations totals would not detect large forward funding balances in specific programs.

In response to the GAO’s findings, NASA established a steering group to review forward
funding. The steering group published its results in "The Management and Liquidation
of Budget Authority: Issues and Recommendations Associated with Recent Growth in
Unliquidated Budget Authority," also known as the Draper Report. The steering group
recommended specific thresholds for unobligated budget authority, uncosted obligations,
and undisbursed costs for each Center. These thresholds are provided earlier in the
Introduction section of the report.

The NASA steering group applied the thresholds to the Center composite25 of all types of
contracts, programs, and projects and based the thresholds on FY 1995 average monthly
obligations, costs, and disbursements. The steering group recommended that NASA
study the thresholds over time to determine whether they should be revised. The NASA
Chief Financial Officer (CFO) concurred with the recommended thresholds and in 1996
and 1997, directed the Agency’s program managers to scrutinize and justify uncosted
balances in excess of 2 months. The CFO’s direction did not address subsequent years.
However, NASA’s 2000 Performance Plan and the CFO Functional Leadership Plan
required the Agency to cost 70 percent of available resources by the end of each fiscal
year.26




24
   The GAO reported its findings in its July 16, 1996, audit report (GAO/NSIAD 96-206), "NASA Budget:
Carryover Balances for Selected Programs."
25
   The Draper report recommended that each Center use a total measurement or Center composite to
evaluate forward funding. The Center composite is a total of all Center financial transactions for each
appropriation including contracts, grants, cooperative agreements, purchase orders, travel, salaries, etc.
26
   The NASA 2001 and 2002 Performance Plans require that the Agency cost 75 percent (the sum of
unobligated budget authority and uncosted obligations) or more of available resources by the end of the
fiscal year.


                                                     11
                                                                                      1
                      Appendix C. NASA’s Uncosted Obligations at
                                End of Fiscal Year 2000

                                              Mission Support
                                              Appropriation

                              Uncosted                                   Number of           Amounts in
     Program Years         Obligations at        Monthly Average          Months             Excess of 2
      1998 – 2000        September 30, 2000           Costs              Uncosted             Months2

    Available until
    Expended3              $113,998,877             $10,161,450             11.2            $93,675,977

    2-year funding4        $150,452,186             $55,415,561              2.7            $39,621,064


    Total                                                                                   $133,297,041

                                           Human Space Flight
                                             Appropriation

    Available until
    Expended3               $8,484,899             $1,167,372                7.3             $6,150,156

                                            Science, Aerospace,
                                             And Technology
                                              Appropriation

    Available Until
    Expended3              $23,438,644             $1,199,710               19.5            $21,039,224

    2-year funding4       $1,629,518,018          $492,006,319               3.3            $645,505,381

    Total                                                                                   $666,544,605

    Grand Total           $1,925,892,624          $559,950,412               3.4            $805,991,802

Source: NASA’s Financial and Contractual Status system as of September 30, 2000.

1
  Uncosted obligations are funds allocated to a program or contract for work not yet performed.
2
  “The Management and Liquidation of Budget Authority: Issues and Recommendations Associated with
Recent Growth in Unliquidated Budget Authority” (also known as the Draper report) recommended that
the Center’s limit uncosted obligations to 2 months of average costs for forward funding.
3
  The available until expended funding includes all funds obligated for construction of facilities including
minor repairs, minor revitalization, minor rehabilitation and modifications, planning and design including
final design, minor construction and additions, preliminary designs, master planning and facilities
engineering functional leadership, discrete projects, and environmental compliance.
4
  The 2-year funding is available for obligation by NASA for 2 fiscal years.




                                                      12
Appendix D. Management’s Response




                13
Appendix D




             14
     Appendix D




15
                       Appendix E. Report Distribution
National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
AA/Chief of Staff
AB/Associate Deputy Administrator for Institutions
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
C/Acting Director for Headquarters Operations
G/General Counsel
H/Assistant Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Assistant Administrator for Management Systems
JM/Director, Management Assessment Division
L/Assistant Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
R/Associate Administrator for Aerospace Technology
S/Associate Administrator for Space Science
U/Associate Administrator for Biological and Physical Science
Y/Associate Administrator for Earth Science

NASA Centers

Director, John F. Kennedy Space Center
 Chief Counsel, John F. Kennedy Space Center
 Chief Financial Officer, John F. Kennedy Space Center
Director, Langley Research Center
 Chief Financial Officer, Langley Research Center
Director, George C. Marshall Space Flight Center
 Chief Financial Officer, George C. Marshall Space Flight Center




                                           16
                                                                        Appendix E

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Managing Director, Acquisition and Sourcing Management Team, General Accounting
 Office
Senior Professional Staff Member, Senate Subcommittee on Science, Technology, and
 Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management and
 Intergovernmental Relations
House Subcommittee on Technology and Procurement Policy
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                          17
                    NASA Assistant Inspector General for Audits
                                 Reader Survey
The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing
our reader survey? For your convenience, the questionnaire can be completed
electronically through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html
or can be mailed to the Assistant Inspector General for Audits; NASA Headquarters,
Code W, Washington, DC 20546-0001.

Report Title: Management of Forward Funding and Undisbursed Costs

Report Number:                                         Report Date:

Circle the appropriate rating for the following statements.
                                                      Strongly                                Strongly
                                                       Agree     Agree   Neutral   Disagree   Disagree   N/A

1.   The report was clear, readable, and logically        5        4       3          2          1       N/A
     organized.
2.   The report was concise and to the point.             5        4       3          2          1       N/A
3.   We effectively communicated the audit                5        4       3          2          1       N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to       5        4       3          2          1       N/A
     support the finding(s) in a balanced and
     objective manner.

Overall, how would you rate the report?

      # Excellent          #      Fair
      # Very Good          #      Poor
      # Good

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.




How did you use the report?




                                                      1
How could we improve our report?




How would you identify yourself? (Select one)

   #   Congressional Staff                 # Media
   #   NASA Employee                       # Public Interest
   #   Private Citizen                     # Other:
   #   Government:            Federal:          State:         Local:


May we contact you about your comments?

Yes:_____                     No:_____

Name:
_____________________________

Telephone: _________________________

Thank you for your cooperation in completing this survey.




                                           2
Major Contributors to the Report
Chester A. Sipsock, Program Director, Financial Management Audits, Quality and
 Oversight

Sandra A. Massey, Program Manager

Linda Wagner Anderson, Auditor-in-Charge

William R. Lester, Auditor

Phillip H. Dearth, Auditor

Nancy C. Cipolla, Report Process Manager

Janice K. Bullard, Attorney Advisor

Annette Huffman, Program Assistant

Patricia C. Reid, Program Assistant
